APPENDIX

1a
APPENDIX A

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4327
___________________
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
DONTAE SMALL,
Defendant – Appellant.
___________________
Appeal from the United States District Court for the
District of Maryland, at Baltimore. James K. Bredar,
Chief District Judge. (1:16-cr-00086-JKB-1)
___________________
Argued: October 31, 2019 Decided:
December 6, 2019
___________________
Before WILKINSON, KING, and HARRIS, Circuit
Judges.
___________________
Affirmed by published opinion. Judge Wilkinson
wrote the opinion, in which Judge King and Judge
Harris joined.
___________________

2a
ARGUED: Brandon Lee Boxler, GIBSON, DUNN &
CRUTCHER LLP, Washington, D.C., for Appellant.
Sandra Wilkinson, OFFICE OF THE UNITED
STATES ATTORNEY, Baltimore, Maryland, for
Appellee. ON BRIEF: Paresh S. Patel, OFFICE OF
THE FEDERAL PUBLIC DEFENDER, Greenbelt,
Maryland; David J. Debold, Travis S. Andrews,
Raymond D. Moss Jr., GIBSON, DUNN &
CRUTCHER LLP, Washington, D.C., for Appellant.
Robert K. Hur, United States Attorney, Paul A. Riley,
Assistant United States Attorney, Charles Kassir,
Law Clerk, OFFICE OF THE UNITED STATES
ATTORNEY, Baltimore, Maryland, for Appellee.
___________________
WILKINSON, Circuit Judge:
Following a six-day trial, a jury in the United
States District Court for the District of Maryland
found defendant-appellant Dontae Small guilty of
federal carjacking, in violation of 18 U.S.C. § 2119(1);
conspiracy to commit carjacking, in violation of
18 U.S.C. § 371; and destruction of government
property, in violation of 18 U.S.C. § 1361.
In the proceedings below, Small made several
motions relevant to the instant appeal, all of which
were denied by the district court: (1) a motion for
judgment of acquittal on the carjacking and
conspiracy charges; (2) a motion to suppress evidence
related to a cell phone search; and (3) a motion to
excuse and question two jurors on Sixth Amendment
grounds. Small now appeals these denials and
requests that we vacate his convictions. Because we
conclude that the district court did not err in denying
these motions, Small’s convictions are affirmed.

3a
I.
A.
On October 4, 2015, Baltimore resident Brandon
Rowe turned around and saw “a gun in my face.” J.A.
181. Rowe and his fiancée had just returned from
vacation to their house in Baltimore’s Federal Hill
neighborhood. It was after 10:00 pm, and there were
no open parking spots in front of their home. They
double-parked and quickly unloaded their car, a silver
Acura TSX. Then Rowe drove off alone in search of
parking while his fiancée went into the house. He
parked the car in a spot roughly a block away and
began walking back. Within a minute, Rowe was
confronted by three masked men, one armed with a
“gray silver gun.” J.A. 182. The gunman demanded
that Rowe hand over everything he had. Rowe
responded that he had only two sets of keys on him,
his car keys and house keys. He handed over his car
keys but told his assailants that he wasn’t giving them
his house keys. The men patted Rowe down and felt
his pockets to confirm that he had nothing else of
value. Throughout this entire interaction, the gun
remained pointed at Rowe’s face.
After taking Rowe’s car keys, the gunman ordered
Rowe to follow his assailants, who were walking
toward the parked car. Rowe refused and instead
turned around and walked home. His assailants did
not pursue him. Rowe called 911 after arriving home,
and officers responded rapidly. Later that night, Rowe
was driven past the spot where he had parked his
Acura. The car was gone.
Shortly before Rowe was confronted by his three
masked assailants, an armed robbery took place in the
same neighborhood. Around 10:00 pm, Hannah

4a
Caswell and Joe Dougherty were walking home from
dinner. As Caswell and Dougherty were passing a
white minivan parked on the street, a masked man
holding a silver gun stepped out in front of them and
blocked their path. He held the gun to Caswell’s head
and demanded that Caswell and Dougherty empty
their pockets. When Dougherty refused to hand
anything over “until the gunmen took the gun out of
[Caswell’s] face,” J.A. 238, a second man came from
behind the minivan and ripped open Dougherty’s
pocket, causing his cell phone to fall to the ground.
The gunman picked up the phone and both assailants
took off running. The white minivan pulled out of its
parking spot and followed. Dougherty and Caswell
used a neighbor’s phone to call the police. Their
descriptions of the silver gun and the assailants were
consistent with Rowe’s.
B.
On October 7, 2015, three days after the armed
robbery and carjacking, a man later identified as
Dontae Small drove a silver Acura into the Arundel
Mills Mall parking lot shortly after 8:00 pm. Security
cameras on the premises scanned the car’s license
plate, which revealed that it was Rowe’s stolen Acura.
Police were called, and officers from the Anne Arundel
County Police Department set up a perimeter around
the parked car and waited for its driver to return.
Small returned to the parking lot at approximately
8:50 pm, unlocked the Acura, and got into the driver’s
seat. At this point, one of the officers pulled his
marked squad car behind the Acura and activated his
emergency equipment.
Rather than surrender, Small drove the Acura
over a curb and fled the scene. Numerous officers
followed in pursuit, and a high-speed chase ensued.

5a
After driving for nearly five miles, Small sped through
the outbound gate at Fort Meade. Once inside Fort
Meade, and with law enforcement still in pursuit,
Small drove through a fence surrounding the National
Security Agency (“NSA”) facility and crashed down an
embankment. Though officers arrived at the scene of
the crash “within [a] minute,” Small had disappeared.
J.A. 63. Small would not be found until he emerged
from a nearby sewer around 10:00 am the following
morning.
Unable to immediately locate the driver of the
Acura, police called for backup and began to set up a
perimeter. Beginning at around 10:00 pm and
continuing for over twelve hours, approximately 200
state and federal officers conducted an extensive
search of the area. Appellant’s Opening Br. at 9.
During this time, the NSA was put “on a lock down”
until authorities could locate the driver. Appellee’s Br.
at 28 (quoting Aff. in Supp. Search Warrant, Dist. Ct.
Docket #25, Ex. A).
Though the authorities did not immediately locate
Small, they did find several items of interest while
searching the NSA grounds. At 1:45 am, officers found
a black hat and a white t-shirt stained with blood near
the crash site. Later, at 4:52 am, search personnel
discovered a cell phone on the ground approximately
fifty yards from the bloody shirt and hat. J.A. 30,
32-33. Detective William Bailey of the Baltimore City
Police Department, the lead investigator on Rowe’s
carjacking, retrieved the phone and took it to a
“floating command center.” J.A. 30-31.
At the command center, NSA Special Agent
Kristel Massengale observed that the cell phone was
receiving calls from a person identified on the screen
as “Sincere my Wife.” J.A. 167-68. At 5:18 am, without

6a
obtaining a warrant, Agent Massengale used the
phone to call “Sincere” back. Sincere, whose real name
is Kimberly Duckfield, informed Agent Massengale
that the phone belonged to her husband, Dontae
Small. Police quickly obtained a photo of Small and
found it matched security footage of the driver from
the Arundel Mills Mall. Based on this evidence, police
concluded that Small was likely the driver of the
stolen Acura.
Throughout the early morning hours, officers used
the cell phone three more times without obtaining a
warrant. First, at 7:24 am, Detective Bailey called
Duckfield and inquired into whether Small had
returned home. Duckfield said no. Next, at 8:21 am,
Duckfield called Small’s phone. Bailey answered and
informed Duckfield that police were looking for Small.
Finally, Bailey removed the phone’s back casing and
battery to locate its serial number and other
identifying information.
At approximately 10:00 am, Small emerged from
the sewer system through a manhole “a little bit”
away from the locations of the crash and scattered
items. J.A. 42. Soon after, Small was spotted by NSA
Police Officer Hugh McCall, who asked him to identify
himself. Small responded by fleeing on foot. After a
brief chase, Officer McCall caught Small and placed
him under arrest.
In the weeks following Small’s arrest, the
government obtained three search warrants relating
to his cell phone. The warrant applications contained
Small’s name and the phone’s serial number—
information that the government had learned from its
use of the phone during the manhunt. The warrants
authorized the government to collect: (1) the call
history, text messages, internet browsing history,

7a
contacts, and deleted data from Small’s phone; (2) the
historical cell site location data for Small’s phone; and
(3) records of outgoing and incoming calls for a second
cell phone that Small’s phone had called on the day of
the robberies. The government relied on evidence
obtained pursuant to these warrants at Small’s trial.
C.
After his arrest, Small was charged with the
carjacking of Rowe’s Acura, in violation of 18 U.S.C.
§ 2119(1); conspiracy to commit carjacking, in
violation of 18 U.S.C. § 371; and destruction of
government property for crashing through the NSA
fence, in violation of 18 U.S.C. § 1361.
The district court empaneled a jury on October 16,
2017, with Small’s trial set to begin the following day.
The next morning, before proceedings began, jurors 5
and 11 approached the Courtroom Deputy to share
their concerns that several individuals had been
“watching” them as they exited the jury room the
previous evening. J.A. 49. The jurors noted that at
least one of these individuals was carrying a cell
phone, though they could not tell if any videos or
photographs were taken. The Courtroom Deputy
relayed these concerns to the district judge.
In response, the district judge took two steps.
First, he ensured that court security officers (“CSOs”)
were posted outside both the courtroom and the jury
room. Second, he directed the Courtroom Deputy to
inform jurors 5 and 11 of the additional security
measures and that any further concerns should be
brought to the attention of the CSOs or the Courtroom
Deputy. The district judge did not disclose the extra
security precautions to the rest of the jurors, nor did
he inform them of jurors 5 and 11’s concerns. He

8a
believed that doing so could cause “more harm than
good” by drawing attention to concerns that were “of
a pretty vague nature” and possibly based on
“misperceptions.” J.A. 51-52. Immediately before
opening statements, the district judge informed the
parties of this situation. Small’s counsel had no
immediate objection to the remedial steps taken by
the district judge.
Small’s trial commenced as scheduled on
October 17. The government presented testimony
from Rowe, Caswell, Dougherty, law enforcement
officers involved in the manhunt at the NSA, a
forensic expert in cellular data analysis, and others.
Much of this evidence sought to link Small to Rowe’s
carjacking. A friend of Small’s, Jamia Butler, testified
that Small had borrowed a white minivan from her on
the day of the carjacking and armed robbery. She
stated that Small told her he would be using the van
to give his associate, Ronald Hall, a ride, and that she
saw Small and Hall drive off together that day.
Caswell and Dougherty testified about the white
minivan present during their robbery. The
government later presented evidence that Hall
resembled the gunman who accosted Rowe.
An expert in cellular analysis testified that Small
and Hall’s cell phones were used in the Federal Hill
neighborhood around the time of the carjacking and
robbery. Call data showed that the two were in
constant communication that night, exchanging
multiple calls and text messages. Shortly before
masked assailants approached Rowe, Small sent Hall
a text message that read: “Get da dude cpming down
da st.i parked on . . . .” J.A. 599. The government also
introduced incriminating excerpts from nine calls that
Small made from state custody in 2016. J.A. 458; see,

9a
e.g., J.A. 579-80 (“They said it was three people. All of
them had on masks. . . . It was four individuals babe.
. . . I was the driver.”). On October 25, 2017, after the
trial concluded, the jury found Small guilty of all three
counts. He was sentenced to 324 months in prison.
D.
During the course of proceedings before the
district court, Small made three motions relevant to
the instant appeal. First, at the close of evidence,
Small made a motion for a judgment of acquittal on
the carjacking and conspiracy charges on the grounds
that the government had failed to offer evidence
sufficient to establish the mens rea element of
carjacking under 18 U.S.C. § 2119. Specifically, he
asserted that no reasonable juror could conclude that
he or his coconspirators possessed § 2119’s requisite
“intent to cause death or serious bodily harm” during
Rowe’s carjacking. The district court denied Small’s
motion, finding that the government’s evidence with
respect to intent was sufficient to send the question to
the jury.
Second, prior to trial, Small filed a motion to
suppress evidence derived from or related to his cell
phone. He asserted that the four warrantless searches
of his phone violated the Fourth Amendment,
rendering all evidence stemming from those
searches—including his cell phone location data and
text messages—inadmissible.1 The district court
1

At times, the government implies that its limited uses of
Small’s phone prior to obtaining a warrant did not qualify as
searches for Fourth Amendment purposes. See Appellee’s Br. at
14, 26-28. Because this issue was not fully briefed and ultimately
does not impact our holding, we will simply assume for the
purposes of our analysis that four warrantless searches of
Small’s phone occurred. Infra Section III.

10a
denied Small’s motion, concluding that no warrant
was required for the searches because Small had
abandoned his phone.
Third, shortly after trial began, Small moved to
excuse and question jurors 5 and 11, based on
concerns that the incident outside the jury room
“would influence their verdicts in such a way that they
would no longer be . . . fair and impartial jurors . . . .”
J.A. 87-88. The district court declined to take either
step, finding that the defendant’s requested relief was
not warranted based on the sparse information
presented.
Small now appeals the district court’s denial of
these three motions.
II.
A.
Under 18 U.S.C. § 2119, a person commits the
crime of federal carjacking if he or she, “(1) with intent
to cause death or serious bodily harm (2) took a motor
vehicle (3) that had been transported, shipped or
received in interstate or foreign commerce (4) from the
person or presence of another (5) by force and violence
or intimidation.” United States v. Foster, 507 F.3d 233,
246-47 (4th Cir. 2007) (quoting United States v.
Applewhaite, 195 F.3d 679, 685 (3d Cir. 1999)).
Section 2119’s mens rea component, a specific
intent requirement, is satisfied whether the
defendant
unconditionally
or
conditionally
“inten[ded] to cause death or serious bodily harm,”
18 U.S.C. § 2119, during a carjacking. Holloway v.
United States, 526 U.S. 1, 8, 12 (1999). That is, the
government need not prove that the defendant
intended to cause death or serious harm “if
unnecessary to steal the car,” so long as it shows that

11a
“at the moment the defendant demanded or took
control over the driver’s automobile the defendant
possessed the intent to seriously harm or kill the
driver if necessary to steal the car . . . .” Id. at 12
(emphasis added).
To establish conditional intent, the government
must provide evidence above and beyond “an empty
threat, or intimidating bluff” made by the defendant
during the carjacking. Holloway, 526 U.S. at 11.
Section 2119’s “by force and violence or by
intimidation” actus reus requirement remains distinct
from its mens rea requirement: an empty threat would
satisfy the former but not the latter. Id. at 11-12. If
the defendant were unwilling to follow through on an
intimidating bluff, then he would lack the intent “to
seriously harm or kill the driver if that action had
been necessary to complete the taking of the car.” Id.
With these points in mind, we turn to the facts of the
case at hand.
B.
Small claims that there is insufficient evidence to
sustain his conspiracy and carjacking convictions, and
that the district court erred in denying his motion to
this effect. Specifically, Small contends that the
government failed to present sufficient evidence for a
reasonable juror to find that he or his coconspirators
acted with “intent to cause death or serious bodily
harm” as required by 18 U.S.C. § 2119.
A defendant who challenges the sufficiency of the
evidence “faces a heavy burden.” Foster, 507 F.3d at
245. A jury verdict will be sustained so long as “there
is substantial evidence in the record to support it.”
United States v. Wilson, 198 F.3d 467, 470 (4th Cir.
1999). When evaluating the sufficiency of the

12a
evidence, “we view the evidence in the light most
favorable to the government,” id., and ask whether
“any rational trier of fact could have found the
essential elements of the crime beyond a reasonable
doubt,” Jackson v. Virginia, 443 U.S. 307, 319 (1979)
(emphasis in original).
Small fails to carry his burden. There is
substantial evidence in the record from which a
reasonable juror could conclude that Small or his
coconspirators intended to seriously harm or kill Rowe
if necessary to steal his vehicle. The facts of this case
are chilling: no ordinary vehicle theft took place here.
Rowe was walking alone at night on a deserted street.
He was accosted by three men—wearing masks—one
of whom was holding a gun. The armed assailant
demanded everything Rowe had while pointing the
gun “in [his] face.” J.A. 181. The gun would remain
trained on Rowe, only a foot from his head, throughout
the entire interaction. Furthermore, the assailants
made physical contact with their victim; when Rowe
said he had only keys on him, they “patted [him]
down” and “felt in [his] pockets.” J.A. 182-83. Even
after Rowe’s assailants had his car keys, they tried to
make him follow them to another location. All of this
evidence allowed the jury to infer that Small or his
coconspirators possessed the intent to seriously harm
or kill Rowe if necessary to steal his car.
Although juries evaluating intent are entitled to
consider the entirety of the circumstances
surrounding a carjacking, see United States v. Fekete,
535 F.3d 471, 481 (6th Cir. 2008), two facts are of
particular note in the case at hand: (1) an assailant
pointed a gun at Rowe; and (2) an assailant made
physical contact with Rowe. First and foremost, an
assailant’s wielding a gun provides a strong indication

13a
of intent to inflict bodily harm if met with resistance,
particularly when “the perpetrator[ ] did not merely
display a gun . . . but rather pointed the gun at the
[victim] in demanding car keys and other
possessions.” United States v. Franklin, 545 F. App’x
243, 249 (4th Cir. 2013); see also United States v.
Robinson, 855 F.3d 265, 269 (4th Cir. 2017) (finding
“plenty of evidence of . . . intent” when the defendant
pointed a gun at the carjacking victim’s head and
threatened her); Foster, 507 F.3d at 247 (finding
element of intent satisfied when the defendant held a
gun to the victim’s head, ordered him out of the car,
and refused him reentry).
In addition, an assailant’s physical touching of a
victim during a carjacking—whether by hand or with
a weapon—supports a jury’s finding of intent. See
Franklin, 545 F. App’x at 249 (finding that a
defendant’s “‘grop[ing]’ [of] one of the vehicle’s
passengers [while] searching for items to steal”
supported the jury’s finding of intent); Fekete, 535
F.3d at 478 (noting that courts often look to “whether
there was physical violence or touching” to determine
whether § 2119’s intent requirement is satisfied). And
while the gunman here did not touch his weapon to
Rowe’s head, he very nearly did so by pointing it from
only a foot away. See United States v. Adams, 265 F.3d
420, 425 (6th Cir. 2001) (adopting a general rule that
“physically touching a victim with a weapon, standing
alone, . . . indicates an intent on the part of the
defendant to act violently” as required by § 2119); cf.
United States v. Bailey, 819 F.3d 92, 97-98 (4th Cir.
2016) (declining to find § 2119’s intent element
satisfied when the defendant held an object to the
victim’s neck but there was no evidence that it was a
weapon).

14a
Small attempts to undermine the jury’s finding by
noting several characteristics of the carjacking at
hand: first, Rowe’s assailants did not verbally
threaten him; second, the government did not present
proof that the gun was loaded; and third, Rowe’s
assailants did not harm him when he failed to follow
certain instructions. While it is true that these factors
are relevant to intent, none are dispositive. They
speak to evidentiary weight, a matter that belongs
with the jury. Jackson, 443 U.S. at 318-19 (“Th[e]
[sufficiency of the evidence] standard gives full play to
the responsibility of the trier of fact . . . to weigh the
evidence, and to draw reasonable inferences from
basic facts to ultimate facts.”); Robinson, 855 F.3d at
269.
Take the lack of verbal threats. While verbally
threatening the victim can certainly help establish
intent, see Robinson, 855 F.3d at 269, there is no bar
to finding intent in cases that lack verbal threats, see
Foster, 507 F.3d at 247. Indeed, it is difficult to
imagine a more effective threat than holding a gun to
someone’s head. A reasonable juror in the case at
hand could well conclude that Rowe’s assailants were
letting the gun do the talking.
Nor does the lack of proof that the gun was loaded
decide this case. Fekete, 535 F.3d at 478 (“[T]he issue
of whether a carjacker’s firearm was loaded has
generally not been treated by the courts as outcomedispositive. Rather, the courts have looked at the
totality of the relevant circumstances . . . .”). The
carjacking statute does not require the use of a loaded
gun; it requires that a defendant have the “intent to
cause death or serious bodily harm.” 18 U.S.C. § 2119;
see also Fekete, 535 F.3d at 480. Here, the government
presented testimony from gun owner Caswell and

15a
military veteran Dougherty indicating that their
masked assailant’s weapon was real. Rowe believed so
as well. And as too many crime victims know, even an
unloaded firearm is capable of causing harm. See
Fekete, 535 F.3d at 480 (noting the danger of pistolwhipping). Based on the evidence presented here, a
reasonable juror could conclude that—even if Rowe’s
assailants carried an unloaded gun—“[they]
nonetheless had the requisite conditional intent to
cause death or serious bodily harm by other means
(e.g., pistol-whipping or brute force),” id.
Finally, Small alludes to the fact that Rowe’s
assailants did not harm him when he failed to follow
their instructions. But this is not persuasive. Under
§ 2119, the defendant’s intent is examined as of “the
precise moment he demanded or took control over the
car.” Holloway, 526 U.S. at 8 (emphasis added).
Although Rowe refused to give his assailants his
house keys, likely to avoid endangering his fiancée, he
turned over his car keys instantly and without
protest. A reasonable juror could conclude that this
scenario would have played out differently, even
tragically, if Rowe had also refused to turn over his
car keys. Similarly, while Rowe refused to follow his
assailants to an unknown location, this occurred after
he had already handed over his car keys. A reasonable
juror could conclude that Rowe’s assailants felt no
need to harm him at that point because they already
had something of value—his car keys.
Small next argues that a finding of intent in the
case at hand would place our circuit in conflict with
others. As Small notes, two circuits have held that
merely brandishing a gun is insufficient as a matter
of law to demonstrate an “intent to cause death or
serious bodily harm,” 18 U.S.C. § 2119. Fekete, 535

16a
F.3d at 480-81 (“[I]n the absence of a physical
touching or direct proof that the firearm was loaded,
the government must establish ‘brandishing-plus’ in
order to satisfy § 2119’s specific intent element.”);
United States v. Randolph, 93 F.3d 656, 664 (9th Cir.
1996) (“We conclude that the brandishing of a weapon,
without more, does not support an inference of specific
intent under § 2119.”), abrogated by Holloway, 526
U.S. 1 (1999).
As an initial matter, it is unclear that our holding
conflicts with those of our sister circuits. To the extent
that “more” than brandishing is required to establish
intent, Rowe’s assailants did not merely “brandish” a
gun. They pointed and trained it at his head. They
physically touched Rowe during the carjacking, when
they patted him down. As such, the “brandishingplus” test from Fekete would not apply: it is used “in
the absence of a physical touching” of the victim.
Fekete, 535 F.3d at 478, 480-81. If we have any
disagreement with our sister circuits—and it is not
clear we do—it is limited to precisely when the
question of intent switches from one of fact for the
jury, see Robinson, 855 F.3d at 269, to one of law for
the courts. Put another way, after a jury has found
§ 2119’s specific intent requirement satisfied and
returned a verdict of guilty under unexceptional
instructions, when can a court step in and proclaim
that no reasonable jury could have reached that very
conclusion? Jurors excel in cases such as this, where
they are asked to apply their common sense to the
factual scenario before them. Thus, we have cautioned
that “[c]ourts must resist invading the jury’s province
by transforming questions of fact into matters of law.”
Robinson, 855 F.3d at 269. We decline to invade the
jury’s province here. The carjacking and conspiracy

17a
charges against Small were properly submitted to the
jury, and the jury returned a verdict of guilty.
Jury verdicts are entitled to respect. The jury here
found that Small or his coconspirators possessed the
“intent to cause death or serious bodily harm,”
18 U.S.C. § 2119, when in the course of taking his car
they demanded at gunpoint that Rowe hand over
everything he had. We decline to overturn the jury’s
conclusion on this question of fact, since “it is clearly
the jury’s duty, not ours, to decide it.” Robinson, 855
F.3d at 269.
III.
A.
We next address Small’s Fourth Amendment
challenge. The Fourth Amendment protects “[t]he
right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures.” U.S. Const. amend. IV. To
safeguard this right, courts apply an exclusionary
rule, which dictates that “evidence obtained in
violation of the Fourth Amendment cannot be used in
a criminal proceeding against the victim of the illegal
search and seizure.” United States v. Calandra, 414
U.S. 338, 347-48 (1974). Although warrantless
searches are generally considered “per se
unreasonable under the Fourth Amendment,” this
generality is subject “to a few specifically established
and well- delineated exceptions.” Arizona v. Gant, 556
U.S. 332, 338 (2009) (quoting Katz v. United States,
389 U.S. 347, 357 (1967)). One such exception is
abandonment. Abel v. United States, 362 U.S. 217, 241
(1960) (“There can be nothing unlawful in the
Government’s appropriation of . . . abandoned
property.”); United States v. Leshuk, 65 F.3d 1105,

18a
1111 (4th Cir. 1995) (“The law is well established that
a person who voluntarily abandons property . . . is
consequently precluded from seeking to suppress
evidence seized from the property.”).
A finding of abandonment is based “not [on]
whether all formal property rights have been
relinquished, but whether the complaining party
retains a reasonable expectation of privacy in the
articles alleged to be abandoned.” United States v.
Haynie, 637 F.2d 227, 237 (4th Cir. 1980) (quoting
United States v. Wilson, 472 F.2d 901, 902 (9th Cir.
1973)). To determine whether the defendant
maintains a reasonable expectation of privacy in an
item, the court performs “an objective analysis” which
considers the defendant’s actions and intentions.
United States v. Davis, 657 F. Supp. 2d 630, 647-48
(D. Md. 2009), aff’d, 690 F.3d 226 (4th Cir. 2012).
“Intent [to abandon] may be inferred from words
spoken, acts done, and other objective facts.” Id. at 648
(quoting United States v. Hoey, 983 F.2d 890, 892 (8th
Cir. 1993)).
B.
Small contends that the district court erred in
denying his motion to suppress the fruits of the
warrantless searches of his cell phone. Specifically,
Small alleges that there was insufficient evidence for
the court to conclude that the phone was abandoned
and that no warrant was required for the initial
searches.
In reviewing a district court’s denial of a motion
to suppress, we review legal determinations de novo
and factual findings for clear error. United States v.
Lull, 824 F.3d 109, 114 (4th Cir. 2016). The
government bears the burden of proving the

19a
admissibility of evidence obtained pursuant to a
warrantless search by a preponderance of evidence.
See United States v. Matlock, 415 U.S. 164, 178 n.14
(1974); United States v. Helms, 703 F.2d 759, 763-64,
766 (4th Cir. 1983).
In determining whether this standard is met, we
may consider both the evidence before the district
court at the suppression hearing and “evidence
adduced at trial that support[ed] the district judge’s
ruling.” United States v. Han, 74 F.3d 537, 539 (4th
Cir. 1996); see also Carroll v. United States, 267 U.S.
132, 162 (1925). Still, there are temporal limitations
on evidence used in our analysis: we evaluate whether
the defendant intended to abandon an item using only
objective information available to officers at the time
they performed the warrantless search. United States
v. Nowak, 825 F.3d 946, 948 (8th Cir. 2016) (per
curiam); Bond v. United States, 77 F.3d 1009, 1013
(7th Cir. 1996). As the Supreme Court has noted, the
reasonableness of a search is evaluated based on “the
facts known to the police” at the time. United States v.
Banks, 540 U.S. 31, 39-40 (2003). A Fourth
Amendment search “is good or bad when it starts.”
United States v. Di Re, 332 U.S. 581, 595 (1948).
Abandonment should not be casually inferred.
People lose or misplace their cell phones all the time.
But the simple loss of a cell phone does not entail the
loss of a reasonable expectation of privacy. Thus, such
ordinary mishaps do not constitute “abandonments.”
Rather, as the district court noted, “[t]here has to be
some voluntary aspect to the circumstances that lead
to the phone being what could be called abandoned.”
J.A. 41. Here there clearly was.
The evidence before the district court depicts a
fleeing suspect tossing aside personal items while

20a
attempting to evade capture. Small fled on foot after
crashing through the NSA gates, leaving his vehicle
and its contents behind. Search personnel would
continue to find Small’s personal items strewn about
during the manhunt. At 1:45 am, officers located a
bloody shirt and hat in the vicinity of the crashed car.
The obvious conclusion is that these items—or, at the
very least, the shirt—were purposefully removed and
tossed aside. Several hours later, around 5:00 am,
officers located a cell phone only fifty yards from the
shirt and hat. The phone was found in a grassy area,
not on a sidewalk or “a place where [someone]
normally might be.” J.A. 43.
Based on these circumstances, the district court’s
inference that Small abandoned the phone seems
sensible. Because a cell phone’s GPS tracking can
“lead you to a defendant,” J.A. 39, it is credible that a
fleeing suspect might intentionally discard his phone.
And while phones occasionally slip out of pockets,
shirts do not accidentally fall off their wearers—at the
exact same moments as hats—and cars do not ditch
themselves after a crash. The fleeing suspect’s
relinquishment of the car, the hat, and the shirt near
where the cell phone was found support the district
court’s finding of abandonment.
The district court relied heavily on these
circumstances to reach its conclusion that Small no
longer had a “reasonable expectation of privacy in
th[e] phone.” J.A. 42-43. Small “is fleeing from the
police, he crashes through a gate in a place where he
is not supposed to be. He’s clearly left the car. Items
are being left behind, the bloody shirt and hat being
one of them.” J.A. 42. Further, the court noted that
there was no evidence Small attempted to retrieve his

21a
phone at any point, even though it wasn’t password
protected.2
Evidence gleaned from trial testimony points in
the same direction. This testimony demonstrates why
search personnel could reasonably conclude at the
time of the search that the phone belonged to the
suspect-at-large. While the government briefly noted
at the suppression hearing that the NSA went on
“lockdown” when Small crashed through the fence,
J.A. 27, trial testimony from several search personnel
gave a more complete picture of the scope of the
manhunt. The testimony suggests that few people
besides the suspect and search personnel were outand-about in the hours before the phone was found.
As trial testimony established, the cell phone was
found in a large crime scene, not in a crowded public
area. An Anne Arundel police officer radioed during
the car chase for “aviation assets” and “K-9 assets.”
J.A. 74. After Small entered Fort Meade but before he
crashed through the NSA fence, an Army sergeant
locked the Fort Meade gates and only reopened them
to allow entry by search personnel. After the crash, an
NSA police captain established a perimeter within the
NSA and led a thorough, methodical search for the
suspect. Search personnel could well believe that this
phone—located during the early morning hours in a

2

Citing Riley v. California, 134 S. Ct. 2473 (2014), Small
contends that even if he abandoned his physical phone, he did
not abandon its digital contents. Appellant’s Opening Br. at
44-45. We do not find this argument persuasive. While Riley held
that “the search incident to arrest exception does not apply to
[digital information stored on] cell phones,” it emphasized that
“other case-specific exceptions may still justify a warrantless
search of a particular phone.” 134 S. Ct. at 2493-94. For the
reasons noted, this is such a case.

22a
grassy area in a facility on lockdown—belonged to the
fleeing suspect who deliberately abandoned it during
flight.
When Small discarded the phone, he ran the risk
that complete and total strangers would come upon it.
In tossing his phone, he relinquished his reasonable
expectation of privacy in it as well. The district court’s
decision to deny suppression shall be affirmed.
IV.
A.
The Sixth Amendment guarantees a criminal
defendant the right to be tried before an impartial
jury. U.S. Const. amend. VI. In order to safeguard this
right, the Supreme Court has held that “[i]n a
criminal case, any private communication, contact, or
tampering, directly or indirectly, with a juror during
a trial about the matter pending before the jury is . . .
deemed presumptively prejudicial.” Remmer v. United
States, 347 U.S. 227, 229 (1954). If the Remmer
presumption is met, the defendant is entitled to an
evidentiary hearing in which the government bears
the burden of showing “that such contact . . . was
harmless to the defendant.” Id. at 229-30; Haley v.
Blue Ridge Transfer Co., 802 F.2d 1532, 1535 (4th Cir.
1986).
Because it is difficult to fully shield juries from the
outside world, see Smith v. Phillips, 455 U.S. 209, 217
(1982), we tolerate certain instances of extrajudicial
contact that “amount to nothing more than innocuous
interventions that simply could not justify a
presumption of prejudicial effect,” Haley, 802 F.2d at
1537 n.9; see also Stockton v. Virginia, 852 F.2d 740,
747 (4th Cir. 1988). Thus, in order to trigger Remmer’s
presumption of prejudice, “the defendant must first

23a
establish both that an unauthorized contact was made
and that it was of such a character as to reasonably
draw into question the integrity of the verdict.”
Stockton, 852 F.2d at 743.
To determine whether a contact was innocuous,
we “turn to the [five] factors the Supreme Court
deemed important” in Remmer: “(1) any private
communication; (2) any private contact; (3) any
tampering; (4) directly or indirectly with a juror
during trial; (5) about the matter before the jury.”
United States v. Cheek, 94 F.3d 136, 141 (4th Cir.
1996).
B.
The day Small’s trial began, jurors 5 and 11
approached the Courtroom Deputy with concerns that
individuals outside the jury room had been “watching”
them when they left the courthouse the previous
evening. J.A. 49. The jurors did not indicate much
else. Small contends that his Sixth Amendment right
to an impartial jury was violated by the district court’s
failure to excuse and question jurors 5 and 11. For this
reason, he requests that his convictions be vacated
and his case remanded for a new trial.
We review the district court’s decision not to
question or excuse jurors after allegations of improper
contact under “a ‘somewhat narrowed,’ modified
abuse of discretion standard” that allows the
appellate court “more latitude to review the trial
court’s conclusion” on the potential for prejudice.
Cheek, 94 F.3d at 140 (quoting Haley, 802 F.2d at 1537
n.11-12); see also United States v. Basham, 561 F.3d
302, 319 (4th Cir. 2009).
Under this standard, we see nothing problematic
about the district court’s denial of Small’s motion to

24a
voir dire and excuse jurors 5 and 11. To invoke the
Remmer presumption and the right to an evidentiary
hearing, Small bore the initial burden of “introducing
competent
evidence
that
the
extrajudicial
communications or contacts were ‘more than
innocuous interventions.’” Cheek, 94 F.3d at 141
(quoting Haley, 802 F.2d at 1537 n.9). He has failed to
do so.
As an initial matter, it is hardly clear that a vague
report of “watching,” without more, constitutes
evidence of “extrajudicial communications or
contacts,” Cheek, 94 F.3d at 141; see also United States
v. Baptiste, 596 F.3d 214, 220-21 (4th Cir. 2010)
(declining to reach the question of whether stares
from a crowd constituted unauthorized contact). We
are unaware of any case where a defendant attempted
to invoke the Remmer presumption based on
“watching” alone. “Watching” can hardly be described
as “communication” or “contact,” both of which imply
an active exchange of information of some sort.
Unsurprisingly,
most
precedent
discussing
extrajudicial contact involves spoken words. See, e.g.,
Basham, 561 F.3d at 316, 320 (juror called local news
outlets about the trial before the jury reached a
verdict); Stockton, 852 F.2d at 742-43, 746 (local
business owner told the jurors that “they ought to fry
the son of a bitch” in a death penalty case). Watching
may be done passively and, unless context indicates
otherwise, conveys little information.
Of course, “watching” may take on an extreme and
sinister character, but here there is no evidence that
it was anything “more than [an] innocuous
intervention[],” Cheek, 94 F.3d at 141. The episode
occurred in a common area of a busy courthouse.
There was no reason for the jurors to associate the

25a
unknown individuals with Small. Indeed, there was
no indication that the incident was in any way related
to Small’s case, “the matter before the jury,” Cheek, 94
F.3d at 141.
“The trial court must be afforded wide discretion
in handling matters relating to . . . the integrity of the
jury.” United States v. Johnson, 657 F.2d 604, 606 (4th
Cir. 1981). Here the district judge took reasonable
steps based on the jurors’ reports. He did not dismiss
or trivialize their concerns. Instead, he increased
security around the jury room. Further, he ensured
that jurors 5 and 11 were aware of where to find
security personnel, encouraged them to report any
further concerns, and provided clear instructions on
how to do so.
The district judge had good reason to be wary of a
more searching inquiry. As he later noted:
Stopping a trial to separately voir dire
particular jurors about potential improper
influence has its own potentially
deleterious impact. Just that questioning
process could plant in jurors’ minds the
notion that perhaps something untoward
is afoot. . . . In this case, the totality of the
information presented to the [c]ourt did
not warrant th[is] sort of inquiry . . . .
J.A. 765. We agree. The judge took a measured,
thoughtful approach to the jurors’ concerns. These
modest steps were proportionate to what the situation
required. We find that the district court did not abuse
its discretion by declining to question and excuse
jurors 5 and 11.

26a
V.
For the foregoing reasons, we reject Small’s
challenges to the proceedings below and affirm his
convictions.
AFFIRMED

27a
APPENDIX B

United States District Court
District of Maryland
___________________
UNITED STATES OF JUDGMENT IN A
AMERICA
CRIMINAL CASE
(For Offenses
v.
Committed on or After
DONTAE SMALL
November 1, 1987)
Case Number: JKB-116-CR-00086-001
Defendant’s Attorney:
Andrew R Szekely
Laura Ginsberg
Abelson
Assistant U.S. Attorney:
Sandra Wilkinson
Paul Anthony Riley
THE DEFENDANT:
☐ pleaded guilty to count(s)
·
☐ pleaded nolo contendere to count(s)
, which
was accepted by the court.
☒ was found guilty on count(s) 1, 2 and 3 after a
plea of not guilty.

28a

Nature of
Offense
Conspiracy
To Commit
Carjacking
18:2119(1) Carjacking;
Aiding &
18:2
Abetting
Destruction
18:1361
Of
Government
Property
Title &
Section
18:371

Date
Offense
Count
Concluded Number(s)
10/08/2015
1

10/07/2015

2

10/07/2015

3

The defendant is adjudged guilty of the offenses
listed above and sentenced as provided in pages 2
through 6 of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984 as modified by U.S. v. Booker, 543 U.S. 220
(2005).
☐ The defendant has been found not guilty on
count(s)
☐

Counts
is/are dismissed on the motion of
the United States.

IT IS FURTHER ORDERED that the defendant
shall notify the United States Attorney for this
district within 30 days of any change of name,
residence, or mailing address until ail fines,
restitution, costs, and special assessments imposed by
this judgment are fully paid.

29a
_____ FILED _______ ENTERED
_____ LOGGED ____ RECEIVED
MAY 0 3 2018
AT BALTIMORE
CLERK, U.S. DISTRICT COURT
DISTRICT OF MARYLAND
BY
DEPUTY

May 1, 2018
Date of Imposition of
Judgment
/s/ James K. Bredar
May 2, 20218
James K. Bredar
Date
Chief Judge
Name of Court Reporter: Christine Asif
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be
imprisoned for a term of 60 months as to count 1;
144 months as to count 2; 120 months as to count
3. Terms to run consecutive for a total term of
imprisonment of 324 months.
☒ The court makes the following recommendations
to the Bureau of Prisons:
That the defendant be placed in a facility as close as
possible to Baltimore, MD consistent with his security
level.
That the defendant participate in any substance
abuse/mental health treatment for which he may be
eligible, including the 500 – hour “Dual Diagnosis”
RDAP.

30a
That the defendant participate in any vocational
program that for which he may be eligible, including
HVAC.
☒ The defendant is remanded to the custody of the
United States Marshal.
☐ The defendant shall surrender to the United
States Marshal for this district:
☐ at _______ a.m./p.m. on
.
☐ as notified by the United States Marshal.
☐ The defendant shall surrender, at his/her own
expense, to the institution designated by the
Bureau of Prisons at the date and time specified
in a written notice to be sent to the defendant by
the United States Marshal. If the defendant does
not receive such a written notice, defendant shall
surrender to the United States Marshal:
☐ before 2pm on __________________.
A defendant who fails to report either to the
designated institution or to the United States
Marshal as directed shall be subject to the
penalties of Title 18 U.S.C. § 3146. If convicted
of an offense while on release, the defendant
shall be subject to the penalties set forth in
18 U.S.C. § 3147. For violation of a condition of
release, the defendant shall be subject to the
sanctions set forth in Title 18 U.S.C. § 3148. Any
bond or property posted may be forfeited and
judgment entered against the defendant and the
surety in the full amount of the bond.
RETURN
I have executed this judgment as follows:
Defendant delivered on ________ to _____ at _______,
with a certified copy of this judgment.

31a

UNITED STATES
MARSHAL
By:
DEPUTY U.S. MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of 3 years as
to Counts 1, 2 and 3 to run concurrent to each other
for a total term of supervised release of 3 years.
The defendant shall comply with all of the
following conditions:
The defendant shall report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
A. MANDATORY CONDITIONS
1) You must not commit another federal, state or
local crime.
2) You must not unlawfully possess a controlled
substance.
3) You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
☐ The above
suspended,

drug testing
based
on

condition is
the
court’s

32a
determination that you pose a low risk of
future substance abuse. (check if applicable)
4) ☒ You must make restitution in accordance
with 18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)
5) ☐ You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)
6) ☐ You must comply with the requirements of
the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in the
location where you reside, work, are a student, or
were convicted of a qualifying offense. (check if
applicable)
7) ☐ You must participate in an approved
program for domestic violence. (check if
applicable)
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page
B. STANDARD CONDITIONS OF
SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.

33a
1) You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from
imprisonment, unless the probation officer
instructs you to report to a different probation
office or within a different time frame.
2) After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must
report to the probation officer as instructed.
3) You must not knowingly leave the federal judicial
district where you are authorized to reside
without first getting permission from the court or
the probation officer.
4) You must answer truthfully the questions asked
by your probation officer.
5) You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with), you must notify
the probation officer at least 10 days before the
change. If notifying the probation officer in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
6) You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your
supervision that he or she observes in plain view.
7) You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the

34a
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
8) You must not communicate or internet with
someone you know is engaged in criminal activity.
If you know someone has been convicted of a
felony, you must not knowingly communicate or
interact with that person without first getting the
permission of the probation officer.
9) If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
10) You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another person
such as nunchakus or lasers).
11) You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12) If the probation officer determines that you pose
a risk to another person (including an

35a
organization), the probation officer may require
you to notify the person about the risk and you
must comply with that instruction. The probation
officer may contact the person and confirm that
you have notified the person about the risk.
13) You must follow the instructions of the probation
officer related to the conditions of supervision.
C. SUPERVISED RELEASE
ADDITIONAL CONDITIONS
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature ______________ Date _______
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
Assessment
Fine
$.00
TOTALS $300.00
☐ CVB Processing Fee $30.00

Restitution
$15,221.68

☐ The determination of restitution is deferred until
________________. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after
such determination.

36a
☐

The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee
shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below.
However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.

Name of
Payee
Clerk, US
District
Court
101 W.
Lombard
Street
Baltimore,
MD 21201
TOTALS

Total
Loss*

Restitution Priority or
Ordered
Percentage
$15,221.68

$_______

$ 15,221.68

☐ Restitution amount ordered pursuant to plea
agreement _______________________
☒ The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(1). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).

37a
☐ The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
☐ the interest requirement is waived for the
☐ fine ☐ restitution
☐
☐

the
interest
requirement
for
the
fine ☐ restitution is modified as follows:

* Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13,
1994, but before April 23, 1996.
SCHEDULE OF PAYMENTS
Payments shall be applied in the following order:
(1) assessment,
(2)
restitution
principal,
(3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) penalties, and
(8) costs, including cost of prosecution and court costs.
Payment of the total fine and other criminal
monetary penalties shall be due as follows:
A

☐

B

☐ $_______________ immediately, balance due
(in accordance with C, D, or E); or

C

☐

D

☐ Installments to commence ________ day(s)
after the date of this judgment.

E

☐ In _______ (e.g. equal weekly, monthly,
quarterly) installments of $____________ over a
period of _____ year(s) to commence when the
defendant is placed on supervised release.

In full immediately; or

Not later than ______________ ; or

38a
The defendant will receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
Unless the court expressly orders otherwise, if this
judgment imposes a period of imprisonment, payment
of criminal monetary penalties shall be due during the
period of imprisonment.
All criminal monetary
penalties, except those payments made through the
Bureau of Prisons Inmate Financial Responsibility
Program, are to be made to the Clerk of the Court.
☒ NO RESTITUTION OR OTHER FINANCIAL
PENALTY SHALL BE COLLECTED THROUGH
THE INMATE FINANCIAL RESPONSIBILITY
PROGRAM.
If the entire amount of criminal monetary penalties is
not paid prior to the commencement of supervision,
the balance shall be paid:
☐
☐

in equal monthly installments during the
term of supervision; or
on a nominal payment schedule of
$______________ per month during the term of
supervision.

The U.S. probation officer may recommend a
modification of the payment schedule depending on
the defendant’s financial circumstances.
Special instructions regarding the payment of
criminal monetary penalties:
☐ Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.

39a
☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court
cost(s):
☐ The defendant shall forfeit the defendant’s
interest in the following property to the United
States:

40a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
UNITED STATES OF
AMERICA

* CRIMINAL NO.
JKB-16-86
*

v.

*

DONTAE SMALL,
Defendant.

*

*

*

*

*

*

*

*

*

*

*

*

*

ORDER
For the reasons stated in open court, IT IS HEREBY
ORDERED:
1. Defendant’s oral motion for judgment of
acquittal (ECF No. 92) pursuant to Federal Rule of
Criminal Procedure 29 is DENIED.
DATED this __23__ day of _Oct_, 2017
BY THE COURT:
/S/_
James K. Bredar
United States District Judge

41a
APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
___________________
UNITED STATES OF
AMERICA
v.

CRIMINAL NO. CCB16-086

DONTAE SMALL
…o0o…
ORDER
For the reasons stated on the record in open court
on July 21, 2017, and in this Order, it is hereby
ORDERED that:
1.

the motion to suppress fruits of warrantless cell
phone search (ECF No. 25) is Denied on the
grounds that the cell phone was abandoned and
no warrant was necessary, with other issues
including exigency and reasonableness being
reserved;

2.

the motions for disclosure of alibi (ECF No. 21)
and to exclude other crimes evidence (ECF No. 43)
are reserved pending further hearing date to be
set;

3.

the motion for severance of Counts (ECF No. 24)
is Denied, as the evidence of Count Three would

42a
be admissible in the trial of Counts One and Two
and is not unfairly prejudicial; and
4.

the motion to suppress evidence (ECF No. 22) is
Denied, because officers had probable cause, or
at least reasonable suspicion, to stop Mr. Small on
or about October 7, 2015.

SO ORDERED this 21st day of July, 2017.

/S/
Catherine C. Blake
United States District
Judge

43a
APPENDIX E

U.S. Constitution, Amendment IV
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
*

*

*

18 U.S.C. § 2119. Motor vehicles
Whoever, with the intent to cause death or serious
bodily harm takes a motor vehicle that has been
transported, shipped, or received in interstate or
foreign commerce from the person or presence of
another by force and violence or by intimidation, or
attempts to do so, shall-(1) be fined under this title or imprisoned not more
than 15 years, or both,
(2) if serious bodily injury (as defined in section
1365 of this title, including any conduct that, if the
conduct occurred in the special maritime and
territorial jurisdiction of the United States, would
violate section 2241 or 2242 of this title) results, be
fined under this title or imprisoned not more than 25
years, or both, and
(3) if death results, be fined under this title or
imprisoned for any number of years up to life, or both,
or sentenced to death.

44a
*

*

*

18 U.S.C. § 371
If two or more persons conspire either to commit
any offense against the United States, or to defraud
the United States, or any agency thereof in any
manner or for any purpose, and one or more of such
persons do any act to effect the object of the
conspiracy, each shall be fined under this title or
imprisoned not more than five years, or both.
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor only,
the punishment for such conspiracy shall not exceed
the maximum punishment provided for such
misdemeanor.

